Rewards Card
Application Disclosures – Village Bank Unsecured Consumer Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

14.74%, 15.74%, 17.74%, or 19.74% when you open your account, based
on your creditworthiness.

After that, your APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

14.74%, 15.74%, 17.74%, or 19.74% when you open your account, based on your
creditworthiness.
After that, your APR will vary with the market based on the Prime Rate.

APR for Cash Advances

14.74%, 15.74%, 17.74%, or 19.74% when you open your account, based on your
creditworthiness.
After that, your APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer

None

• Cash Advance

Either $10 or 3% of the amount of each cash advance, whichever is greater.

• Foreign Transaction

2% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment
• Returned Payment
• Returned Convenience Check

Up to $27
Up to $27
Up to $27

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”

I am applying for the maximum amount of credit I qualify for. If my application is approved, I understand that I will be subject to
all terms described in the agreement provided with my consumer credit card, including terms related to account payments, rates,
fees, governing law and change in terms. I agree to be responsible, individually and together with any co-applicant, for use of the
credit card account by any cardholder or authorized user. I understand this agreement will become effective and I will be bound
by its terms the first time the credit card account is activated or used by any cardholder or authorized user. I understand and agree
that Village Bank may obtain consumer reports about me to review this application, and, if it opens a credit card account for
me, Village Bank may obtain consumer reports about me in the future to review, update, renew, collect, and service my credit card
account and for other purposes permitted by law. Upon my request, I understand Village Bank will tell me whether it obtained a
consumer report about me and provide the name and address of any consumer reporting agency that provided the report.
Consent for Communications: By providing the number of my telephone land line, mobile phone or other wireless device and my
email address, now or in the future, I expressly authorize Village Bank and any of its affiliates, agents, service providers, and assignees
to call me using an automatic telephone dialing system or otherwise, leave a voice, prerecorded or artificial voice message
Form AD VBK
11/2017

Rewards Card
Application Disclosures – Village Bank Unsecured Consumer Credit Card
for me, and send a text, email or other electronic message to me, for any purpose related to the origination, servicing and collection
of any account Village Bank may establish for me or for informational purposes related to my accounts with Village Bank (each, a
“Communication”). I agree that Village Bank and its affiliates, agents, service providers or assignees may call or text me at any
telephone number associated with my accounts that I provide now or in the future, including mobile telephone numbers, and may
send an email to any email address associated with my accounts that I provide now or in the future. I also agree that Village Bank and
any of its affiliates, agents, service providers or assignees may include my personal information in a Communication. I understand
that Village Bank will not charge me for a Communication, but my service provider may. I also understand and agree that
Village Bank and any of its affiliates, agents, service providers or assignees may always communicate with me in any manner
permitted by law that does not require my prior consent. I agree that Village Bank may monitor and record any telephone calls to
assure service quality or for other legitimate business reasons.
Notice of Negative Information Furnishing: We may report information about your account to credit bureaus. Late payments,
missed payments, or other defaults on your account may be reflected in your credit report.
Military Lending Act: Certain members of the Armed Forces and their dependents (“Covered Borrowers”) are protected by the
Military Lending Act, 10 USC §987 (“MLA”). To hear important MLA disclosures and payment information for our credit card
agreements, please call (866) 806-9304.
Notice to California Residents: An applicant, if married, may apply for a separate account. After credit approval, the primary
applicant and any co-applicant will each have the right to use the account to the extent of any established credit limit and each may
be liable for all credit extended under the account.
Notice to Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all
creditworthy customers and that credit reporting agencies maintain separate credit histories on each individual upon request. The
Ohio Civil Rights Commission administers compliance with this law.
Notice to New York Residents: New York residents may contact the New York State Department of Financial Services at 1-800-3423736 or go to www.dfs.ny.gov for free information on comparative credit card rates, fees and grace periods.
Notice to Married Wisconsin Residents: Wisconsin law provides that no agreement, unilateral statement or court decree relative to
marital property will adversely affect a creditor’s interest, unless prior to the time credit is granted the creditor is furnished a copy of
the agreement, statement or decree, or has actual knowledge of the adverse provision. If any applicant or co-applicant is a married
Wisconsin resident, each must provide his/her spouse’s name and address in writing and mail it to Village Bank, Attn: Village
Customer Care, 1793 South Creek One, Powhatan VA 23139 within fifteen (15) days after account approval, so we can provide a
notice to that spouse as required by Wisconsin law.

Form AD VBK
11/2017

Consumer Credit Card Agreement
This Consumer Credit Card Agreement applies to your credit card account with Village Bank, Midlothian, Virginia (the “Account”).
The words “we,” “us,” and “our” mean Village Bank, its agents, authorized representatives, successors, and assigns. The words “you”
and “your” mean each person (as an individual) and all persons (as a group) who apply and are responsible for paying the
Account or on whose behalf we issue a credit card or other device for Account access (each, a “Card”). An “Authorized User” is a
person any of you authorize to use the Account or a Card, but who did not apply for the Account and who is not directly responsible
to us for paying the Account. The “Interest Charges” that apply to your Account are the charges we determine by multiplying a
periodic rate to your Account balances. The “Fees” are other Account charges that are not Interest Charges we calculate based on a
periodic interest rate. Other capitalized terms not defined by this paragraph are generally defined with their first use in the
Agreement.
1.

Your Account Agreement and When It Becomes Effective

Our complete Account agreement with you (the “Agreement”) is contained in and governed by:
(A) this document, called the Consumer Credit Card Agreement;
(B) all Account disclosures and terms provided to you at or before the time the Account is first opened and can be used,
including those made when you applied for the Account, before we allowed you to use the Account and Cards (the
“Account Opening Disclosures”), and in other written materials delivered with your Card;
(C) all other disclosures and terms that relate specifically to your Account and its features and services, including rewards
disclosures (if your Account has rewards) and disclosures about benefits that may be provided by the payment card network
shown on your Card (each, a “Payment Card Network”);
(D) disclosures and terms shown on periodic statements for your Account (each, a “Statement”); and
(E) any future changes we make to any of these disclosures and terms, as permitted or required by law.
Please read these materials carefully and keep them together for future reference. You understand and agree that the Agreement
becomes effective the first time any of you or any Authorized User activates a Card or uses the Account in any way. When the
Agreement says that we “may” take an action, this means we are authorized to take the action in our sole discretion, subject only to
any limitations or requirements established by law or the express terms of the Agreement. We may make new offers to you in the
future or forward offers from others that may interest you. Any new or different terms that apply will be provided with the offer. If
you accept the offer, the previously disclosed terms in the Agreement will still apply except as expressly modified by the offer.
2.

Required Account Information

We must have complete, current and valid information about you to provide your Account (including names, addresses; telephone
numbers; dates of birth; employment and income information, Social Security numbers, or other government identification numbers).
We may also ask for similar information about any Authorized User. You must notify us when this information changes. To
do this, contact us in writing at the address shown on your most recent Statement or call us at the customer service telephone
number shown on your most recent Statement or the back of your Card. We may require you to provide additional documents
acceptable to us so we can verify information.
3.

Using Your Account and Card

In general, you and Authorized Users may use a Card and the Account: (a) to purchase or obtain property, rights, goods and services
from merchants and vendors (each, a “Purchase”); (b) to obtain a loan from us using the Card, convenience checks or other devices
we approve for Account access, including loans initiated through a bank teller or an Automated Teller Machine and your use of a
Card or Account to obtain an item we consider a cash equivalent, such as wire transfers, travelers’ checks, money orders, foreign
currency, lottery tickets, and gaming chips (each, a “Cash Advance”); and (c) to transfer balances to the Account from an account
you owe a different financial institution or creditor, using any written, electronic or telephonic device or method we approve for this
purpose and subject to our rules and restrictions (each, a “Balance Transfer”). Together, these Purchases, Cash Advances, and
Balance Transfers are the “Balance Categories” of your Account. From time to time, we may also allow you to use your Account or
Card for Purchases, Cash Advances or Balance Transfers subject to unique terms we describe in our promotional materials (each, a
“Promotional Offer”). You understand and agree that we may decide which Balance Category applies to any Account transaction and
our decision is final. You and any Authorized User may use the Account and Cards for Purchases, Cash Advances, Balance Transfers,
and Promotional Offers, subject to the terms and conditions of this Agreement and applicable law.

You agree to sign the Card immediately after you receive it. The Card is valid through the expiration date shown on the Card itself.
The Card is our property and you must return it to us or destroy it if we ask. You agree to take reasonable steps to prevent
unauthorized use of your Card and Account. If a personal identification number (“PIN”) is assigned to a Card for use with certain
transactions, such as the Cash Advances you may obtain from an automated teller machine (“ATM”), keep the PIN secure and do not
write it down, give it to someone else or keep it with your Card. If you allow someone else to use your Card, you are responsible for
all Account transactions made by that person and all of the associated Fees and Interest Charges, except to the extent prohibited by
law.
At any time and without advance notice, we reserve the right to not allow specific Account transactions, to suspend Account use, or
to close the Account for our legitimate business and risk management reasons, unless applicable law expressly requires us to notify
you and wait any period of time before taking these actions. We may also limit the combined dollar amount or the total number of
certain Account transactions, such as Cash Advances, allowed during a day or other specific time period. We may restrict Account
transactions and the availability of Account credit to protect you and us against potential fraud, unauthorized transactions, Account
misconduct or misuse, or for our risk management and business reasons. From time to time, Account services may be unavailable to
you and Authorized Users due to circumstances beyond our control, such as system failures, fires, floods, natural disasters or other
unpredictable events. If any of these events happens, we will not be responsible or liable to you.
You agree not to use, try to use, or permit use of a Card or the Account for any Internet gambling transactions or any other
transactions that are illegal or not permitted by us. If this happens, you must still pay us for these transactions and they remain
subject to all other Agreement terms. You must reimburse us and the Payment Card Network for all damages and expenses
associated with these transactions. You may not use the Account to conduct transactions in any country or territory or with any
individual or entity that is the subject of economic sanctions that are enforced and administered by the Office of Foreign Assets
Control (“OFAC”) in the U.S. Department of the Treasury. We may block use of the Card and Account in these countries and
territories or with these individuals or entities.
4.

Balance Transfers

We may allow you to transfer certain balances to the Account that you owe other creditors or financial institutions, subject to any
minimum Balance Transfer amount we disclose and any credit limit we allow for Balance Transfers. You may not ask us to process a
Balance Transfer for any amount you already owe to us, unless we give you our express permission to do so. All Balance Transfers are
subject to our approval. We will not process a Balance Transfer request we consider incomplete or illegible. You may use only the
devices and methods we have approved for Balance Transfers. If we do not approve the full amount of any Balance Transfer you
request, we may process part of the amount you request as a Balance Transfer or decline the entire request. We are not liable to
you if we do not process part or all of any Balance Transfer you request. We may make Balance Transfers in any order we choose.
You agree not to request a Balance Transfer for any amount that is or may be the subject of any dispute between you and any other
creditor or financial institution. If you do, you understand this may prevent you from exercising your dispute rights against other
creditors and financial institutions. We are not liable to you for disputes you may have with other creditors and financial institutions.
If you request a Balance Transfer, you must monitor your other accounts and continue making the minimum payments due on these
accounts until your other creditor or financial institution provides an account statement showing the balance of your other account
has been paid. This may not happen until after the Balance Transfer appears on a Statement from us. You are liable for any late
payments, finance charges or disputed amounts on your other accounts. If you want your other accounts closed following a balance
transfer, you must instruct your other creditor or financial institution to do so. We will not do this for you.
5.

Credit Limits

We will disclose information about the credit limits that apply to your Account when we open it. Your Statements will also disclose
information about your Account credit limit. We may assign different credit limits for the different Balance Categories of your
Account. For example, the credit limit we assign for Cash Advances, Balance Transfers, or Promotional Offers may be lower than
your credit limit for Purchases or the overall credit limit of your Account. We may raise, lower, restrict, or cancel the credit limit that
applies to any Balance Category or the Account itself at any time and for any reason, subject to any notices that are required by
law. This will not affect your obligation to pay us. You must keep track of your Account balances and available credit. You agree not
to allow your Account to go over any credit limit. We may honor transactions above your credit limits, but, if we do, this will not
increase your credit limit and you must pay us the full amount of these transactions and all associated Interest Charges and Fees.

6.

Authorized Users

We may limit an Authorized User’s ability to initiate certain Account transactions. If we do, we will tell you about these limitations
before we add any new Authorized User on your Account. You are responsible for any use of a Card or the Account by each
Authorized User, as well as anyone else you or they allow using your Account or a Card. This will be true even if you did not want or
agree to the use. If you want to remove an Authorized User from the Account, you must contact us at the customer service telephone
number or address shown on your most recent Statement and request their removal. You agree that we have a reasonable
amount of time to research your Account information and remove an Authorized User. You must immediately destroy all
Cards in the Authorized User’s possession and cancel all of their billing arrangements to the Account. We will not do this for you.
During this time, you are still responsible for paying all amounts the Authorized User may charge to the Account, even if these
amounts do not appear on the Account until later. An Authorized User may remove themselves from the Account at any time upon
request. We may close your existing Account, or issue a new Card with a new Account number, after an Authorized User is removed.
7.

Your Promises to Us

You promise to do everything the Agreement requires of you so long as your Account has an unpaid balance, remains open to future
transactions, or both. Each of you and all of you promise, individually and together, to pay us all amounts due on your Account, now
and in the future. This promise applies any time the Account is used by any of you or any Authorized User. This promise includes
amounts where you or any Authorized User use the Account or a Card for a transaction with a merchant or financial institution but
are not required to sign a purchase slip or other transaction document. If you or an Authorized User use your Card number without
presenting the Card itself (such as for mail, telephone or Internet purchases), these transactions will be treated as if you or the
Authorized User used the Card in person. The amounts you promise to pay in connection with your Account includes all Account
transactions in each Balance Category made by any of you and any Authorized User, plus all Fees and all Interest Charges as described
and required by the Agreement.
8.

Statements and Billing Cycles

The “Billing Cycle” is the period of time covered by each Statement we send for the Account. The documents or information that
your Statement contains after a Billing Cycle will disclose important Account information, including Account transactions in each
Balance Category, Account payments, Fees, Interest Charges, unpaid Account balances, and payment requirements. The amount of
time between your regular Statements is generally equal (approximately 30 days), but may vary slightly in length from Billing Cycle
to Billing Cycle. Your first Billing Cycle may be more or less than 30 days. You must pay any Minimum Interest Charge and any Fees
due after your first Billing Cycle, even if it is for a period less than 30 days. Your Statements disclose the length of each Billing Cycle.
Your Account will continue to have Billing Cycles, even if we do not need to send a Statement after any Billing Cycle. We will send a
single Statement to one of you for all Cards on your Account, except when the law does not require or permit us to send a
Statement to any of you. You agree we may send Statements to the first one of you named in our Account records, unless we agree
or decide to change this after the Account is opened.
9.

Disputed Transactions; Lost or Stolen Cards; Unauthorized Use

You should promptly inspect each Statement you receive and tell us about any errors or questions you have, as described in the
“Billing Rights” section of your Statement and this Agreement. If you do not notify us as provided in these disclosures, you agree we
may assume all information in the Statement is correct. You must take reasonable steps to prevent the unauthorized use of your
Card and Account. If you notice the loss or theft of your Card, or a possible unauthorized use of your Card, you should write to us
immediately at the address provided on your most recent Statement or call us at the telephone number provided on your
Statement. You will not be liable for any unauthorized use that occurs after you notify us. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any case, your liability will not exceed $50 (or any lesser amount required
by law or as provided under the express terms of a benefit provided by a Payment Card Network). If we reimburse your Account for
unauthorized charges made with a Card, you agree to provide reasonable cooperation and assistance to us in investigating and
seeking reimbursement from the wrongdoer. Your help includes giving us documents that we reasonably request and in a form
acceptable to us.
10.

Interest Charges

We will charge Interest Charges to your Account as described in the Agreement, including your Account Opening Disclosures and
Statements. The Account Opening Disclosures provide important information about the Interest Charges that apply to your Account.
Your Account Opening Disclosures describe your Minimum Interest Charges, the Annual Percentage Rates (“APR”) and

corresponding Daily Periodic Rates for each Balance Category, the APRs that may vary from Billing Cycle to Billing Cycle based on
changes to a published index rate and how we determine any variable APRs. If you are required to pay Interest Charges for any
Billing Cycle, your Minimum Interest Charge will be no less than $2.00.
We calculate the Interest Charges on your Account by applying a Daily Periodic Rate to the “Average Daily Balance” of each Balance
Category in your Account (Purchases, Cash Advances and Balance Transfers, some of which may be Promotional Offers). We multiply
the results for each Balance Category by the number of days in the Billing Cycle. This gives us the total Interest Charges for that
Billing Cycle. The “Daily Periodic Rate” is a daily interest rate based on the APR divided by 365 (or, in a leap year, divided by 366).
We calculate the “Average Daily Balance” for each Balance Category. To do this, we start with the beginning amount of the Balance
Category each day, add any new Account transactions and debit adjustments to the appropriate Balance Category, and subtract any
unpaid Interest Charges, unpaid Fees, payments and credits. This gives us the “Daily Balance” for each Balance Category. We
calculate the “Average Daily Balance” for each Balance Category by adding all the Daily Balances for each day in the Billing Cycle, and
then dividing by the total number of days in the Billing Cycle. This gives us the Average Daily Balance for each Balance Category
(including current transactions).
If you pay the New Balance in full after each Billing Cycle by the due date shown on the Statement for that Billing Cycle (or if the
Previous Balance shown on the Statement was a zero or credit amount), we will not make you pay Interest Charges on new Purchases
made during the Billing Cycle shown on that Statement. This is called a grace period. If you do not take advantage of the
grace period, Interest Charges will start on the day the Purchase posts to your Account and is included in the Daily Balance of
Purchase transactions. This means you may owe Interest Charges even if you pay the entire New Balance one month, but did not do
so for the previous month. You must pay Interest Charges on Cash Advances and on Balance Transfers from the date you obtain them,
because there is no grace period for Cash Advances or Balance Transfers. You must pay Interest Charges on Promotional Offers
from the date we disclose when we make the Promotional Offer. We may describe these Promotional Offers in your Account Opening
Disclosures and other written materials we provide when opening your Account. After opening your Account, we will describe
these Promotional Offers in your Statement or other promotional materials we may provide from time to time. You must
pay Interest Charges on each unpaid amount until it is paid in full. Interest Charges are added to the proper Balance Category of your
Account.
11.

Fees

You agree to pay the following Fees we charge to your Account, in the amounts shown on your Account Opening Disclosures or this
section of the Agreement.
Balance Transfer Fee: None
Cash Advance Fee: Each time you obtain a Cash Advance, we will charge a Cash Advance Fee that is either $10.00 or 3% of the
amount of the Cash Advance, whichever is greater.
Foreign Transaction Fee: Each time you make a Purchase or obtain a Cash Advance in a currency other than U.S. dollars or in a
country outside the United States, we will charge a Foreign Transaction Fee that 2% of the amount of the Purchase or Cash Advance.
Late Payment Fee: If you do not pay at least the Minimum Payment by its due date, we will charge a Late Payment Fee of $27.00.
Returned Payment Fee: If any form of Account payment we receive is not paid for any reason by your depository institution or
financial services provider, we will charge a Returned Payment Fee of $27.00 to your Account. We may charge this Returned
Payment Fee if an Account payment we receive is initially returned unpaid by your depository institution or financial services
provider, even if that institution or provider later allows this payment.
Returned Convenience Check Fee: If you authorize or request a Cash Advance from the Account by convenience check, and the
Cash Advance is not made because your Account is closed, suspended, overlimit or would become overlimit if we made the Cash
Advance, we will charge a Returned Convenience Check Fee of $27.00 to your Account.

On-Demand Electronic Payment Fee: If you ask us to assist you in making an expedited Account payment by electronic means
during a live telephone conversation or live interaction with our customer service representatives, we will charge an On-Demand
Electronic Payment Fee of $10.00 to your Account.
Rush Card Fee: If you ask us to expedite our delivery of a Card when we open your Account or at any time after that, we will charge
a Rush Card Fee of $65.00 to your Account.
Statement Copy Fee: We may charge a Statement Copy Fee of $5.00 to your Account for each copy of a Statement you request,
unless it is required to resolve a billing dispute.
Transaction Retrieval Request Fee: We may charge a Transaction Retrieval Request Fee of $10.00 to your Account for each copy of
a transaction document that you request, unless it is required to resolve a billing dispute.
12.

Transactions Made in Foreign Currencies

If an Account transaction is in a foreign currency, the Payment Card Network (such as Visa U.S.A. Inc. or MasterCard International)
will convert the transaction into U.S. dollars. The Payment Card Network will use its own currency conversion procedures that are in
effect when the Payment Card Network processes the transaction. The exchange rate used by the Payment Card Network may be a
government-mandated exchange rate or may be based on a range of rates available in the wholesale currency markets as of the
processing date. The conversion rate in effect on the processing date may be different than the rate in effect on the transaction or
posting date.
13.

Minimum Payments

As of the last day of each Billing Cycle, we will determine the Minimum Payment due for your Account and disclose it on your
Statement for that Billing Cycle. The Minimum Payment you must pay by the due date after each Billing Cycle will include all past due
and overlimit amounts for your Account, plus the greater of: (a) $25.00 or any lesser amount that would pay the New Balance in
full; or (b) 3.0% of the New Balance. We may round the Minimum Payment up to the nearest whole dollar amount. We may also
require you to make immediate payment of your entire New Balance if an event of default occurs as described in the Agreement. To
avoid a Late Payment Fee, you must pay us at least this Minimum Payment by the due date shown on the Statement. In addition to
the Minimum Payment, you may pay all or part of the total balance of your Account at any time. You must still pay at least the
Minimum Payment after each Billing Cycle, even if you paid more than the Minimum Payment due for any previous Billing Cycle.
14.

Making Payments

Your payments to us must be in U.S. dollars from a U.S. deposit account and must otherwise be acceptable to us. We do not accept
and you may not send cash payments through the mail. You may not make Account payments with funds borrowed from your
Account or any other credit account with us. You agree to follow the payment requirements we disclose on Statements from time to
time. Any in-person payment we accept from you at our branch office before its closing time will be credited to your Account on the
day we receive it. Mailed payments must be mailed to us at the address for payments shown on your Statement, unless we expressly
instruct you to make payments at a different address. A mailed payment will be credited to your Account on the day we receive it, if
you send the payment coupon from your Statement in the same envelope with your payment or you include your Account number on
your payment, and your payment arrives at the address we specify no later than the due date indicated on your Statement. If
your due date falls on a day when we do not receive payments, any payment we receive the next day that conforms to these payment
requirements will not be treated as late. Please allow at least five (5) days for postal delivery. Unless we, or our agents
specifically instruct you to make payment in a different manner, payments received at any other location or in any other form may
not be credited for up to five (5) days. This may cause you to be charged Late Payment Fees and additional Interest Charges. We may
refuse to accept any payment made by someone else for your Account. If we accept a payment made by someone else for your
Account, you will be responsible for the payment made, even if that payment is rejected or not paid.
15.

How We Apply Your Payments

We apply your payment of a Minimum Payment to the Balance Categories with lower Annual Percentage Rates before the Balance
Categories with higher Annual Percentage Rates. We apply any portion of a payment that exceeds your Minimum Payment to the
Balance Categories with higher Annual Percentage Rates before the Balance Categories with lower Annual Percentage Rates, except
as otherwise required by law.

16.

Payment Processing; Items with Restrictive Conditions or Instructions

We may accept and process payments without losing any of our rights. Even if we apply a payment to your Account, we may delay
the availability of credit in your Account until we confirm your payment has cleared. We may resubmit and electronically collect
returned payments. We may also adjust your Account as necessary to correct errors, to process returned and reversed payments,
and to handle similar issues.
An “Item” means a check, draft, money order or other negotiable instrument you use to pay your Account. This includes any image of
these instruments. When you provide an Item as payment, you authorize us either to use information from your Item to make a onetime electronic fund transfer from your deposit account or to process the payment as a check transaction. When we use information
from your Item to make an electronic funds transfer, funds may be withdrawn from your deposit account as soon as the same day
your payment is received and you will not receive your Item back from your financial institution. You may contact us and ask that we
not process your future Items in this way. If we process the payment as a check transaction, you understand and agree that we may
convert your Item into an electronic image that can be collected from your depository institution as a substitute check. We will not
be responsible if an Item you provide has physical features that, when imaged, result in it not being processed as you intended.
Any Item that has restrictive words, conditions, limitations or special instructions (including Items marked with the words “Paid in
Full” or similar language), and all accompanying communications must be mailed to us at Village Bank, Attn: Village Customer
Care, 1793 South Creek One, Powhatan VA 23139. If you make your payment or send any accompanying communications to any
other address, we may accept and process the payment, without losing any of our rights.
17.

Credit Balances

We may reject and return to you any payment that creates a credit balance on your Account. Any credit balance we allow will not be
available until we confirm that your payment has cleared. If we allow a credit balance after receiving a payment that exceeds the
New Balance, this will not increase the credit limit of your Account and we will have no duty to authorize Account transactions that
would exceed your Account’s credit limit. We may, at our option, reduce the amount of any credit balance by any new amounts billed
to your Account. You may contact us as provided on your Statement and request a refund of any available credit balance. If
you contact us in writing, we will refund your credit balance within seven (7) business days from our receipt of your written request. A
business day means any day in which our offices are open for the processing of Account payments and credits.
18.

Account Default and Remedies

We may consider you in default of your Agreement with us if:
(A) you do not make at least the Minimum Payment due after a Billing Cycle by its due date;
(B) any payment you make or attempt is rejected, not paid or cannot be processed;
(C) you exceed an assigned credit limit;
(D) a bankruptcy or other insolvency proceeding is filed by or against you;
(E) you die or are legally declared incompetent or incapacitated;
(F) we determine that you made a false, incomplete or misleading statement on any of your Account documentation, or
you otherwise tried to defraud us;
(G) you do not comply with any term of this Agreement; or
(H) you permanently reside outside the United States.
Paying the Interest Charges and Fees charged in connection with a default will not, by itself, cure the default. Unless the law requires
us to notify you and wait before we may take action, you understand and agree that we may, after any event of default and
without advance notice to you, take any one or more of the following actions:
(i)

close or suspend your Account;

(ii) lower your credit limits;

(iii) increase your Minimum Payment;
(iv) demand that you immediately pay the entire balance owing on your Account;
(v) continue to charge you Interest Charges and Fees as long as your balances remain outstanding; and/or
(vi) exercise any rights and remedies the law allows to creditors following a default, which includes the filing of a lawsuit
against you.
You agree to pay us all of our collection expenses to the extent permitted by applicable law, including but not limited to reasonable
attorney’s fees that we incur after referring your Account to an attorney who is not our salaried employee.
19.

Your Consent for Communications

By providing the number of your telephone land line, mobile phone or other wireless device and your email address, you authorize us
to call you, using an automatic telephone dialing system or otherwise, leave a voice, prerecorded or artificial voice message for
you, or send a text, email or other electronic message to you, for any purpose related to the servicing and collection of the Account or
for other informational purposes relating to your Account and other accounts with Village Bank (each, a “Communication”). You agree
that we may call or text you at any telephone number associated with the Account or other Village Bank accounts, including
mobile telephone numbers, and many send an email to any email address associated with the Account or other Village Bank accounts
that you provide now or in the future. You also agree that we may include your personal information in a Communication.
You understand that we will not charge you for a Communication, but your service provider may. You also understand and agree that
we may always communicate with you in any manner permitted by law that does not require your prior consent. You agree that
we may monitor and record telephone calls with you to assure service quality or for other legitimate business reasons.
20.

Credit Reports

We may provide information about you and the Account to consumer credit reporting agencies. We may also provide information
about you and the Account to others as described in our privacy notices. Information we provide about the Account may appear on
credit reports about you and Authorized Users. This could include negative information, if you do not comply with the terms of this
Agreement. We may obtain and use credit and income information about you from consumer credit reporting agencies and others,
as the law allows.
If you believe we have reported inaccurate information about you to a credit reporting agency, notify us in writing at: Village
Bank, Attn: Village Customer Care, 1793 South Creek One, Powhatan VA 23139. In doing so, identify yourself, your Account, the
information you believe is inaccurate, and tell us why you believe the information is incorrect. If you have supporting documents or
information, such as a copy of a credit report that includes information you believe is inaccurate, please send the supporting
documents and information too.
21.

Closing or Suspending Your Account

You may ask us to close your Account by calling or writing us at the address for customer service as described on your Statement. If
you do, we may provide you with additional details about this process and request certain information from you, including payment
information. If a Card is used or charges post to your Account after you ask us to close it, we may keep your Account open or reopen
it. We may close or suspend your Account and your right to obtain credit from us. We may do this at any time and for any reason, as
permitted by law, even if you are not in default. A suspension of your Account might be permanent or temporary. If your Account is
closed or suspended for any reason, you and all Authorized users must stop using your Card immediately. You must also cancel all
recurring charges or similar billing arrangements connected with the Account. We will not do this for you. If we close or permanently
suspend your Account, you must also destroy all Cards. You must still pay us all amounts you owe on the Account, even if these
amounts are charged after your Account is closed or suspended.
22.

Changes to Your Agreement

You may not change the Agreement unless one of our authorized officers expressly agrees to do so in a signed writing. We may, at
any time, add, delete or change any term of this Agreement, unless the law prohibits us from doing so. We will give you any notice
and wait any time period that the law requires before changing the Agreement and Account terms. If we notify you of changes, we
will send you a separate notice or inform you on your Statement. We may send this notice to you electronically, as permitted by law.
Our notice will tell you when and how the changes will take effect and describe any rights you have in connection with the changes.

You understand that any variable APRs associated with your Account can increase or decrease in each Billing Cycle, as the published
index for these rates goes up or down. If we increase your Interest Charges for any other reason, we will notify you in advance and
inform you of your options, including any right to reject these changes. If we increase your Fees or change other significant Account
terms, we will also notify you in writing and inform you of your options, including any right to reject these changes. After the first
year of the Account, we may increase your Fees and the Interest Charges for new Account transactions. We may change any other
terms of your Account at any time, after we give you any notice and wait any time period required by law.
23.

The Law that Applies to Your Agreement; Statute of Limitations

We make decisions to grant credit, open Accounts, and issue Cards from our offices in Virginia. The interpretation and enforcement
of this Agreement (including the exportation of interest) shall be governed by federal law and by Virginia law, without regard to
conflict of law principles. If any part of this Agreement is found to be unenforceable or invalid, the remaining parts will remain in
effect. You waive any applicable statute of limitations, to the extent allowed by law. If the law does not allow the waiver of any
applicable statute of limitations, you agree that the statute of limitations period for all purposes of this Agreement (including the
right to collect debt) will be the longer of the limitation period provided under Virginia law or the limitation period under the law of
the jurisdiction where you live.
24.

Waiver

We will not lose any of our rights if we delay taking any action for any reason or if we do not notify you. For example, we may waive
your Interest Charges or Fees without notifying you and without losing our right to charge them in the future. We may always
enforce our rights later and may take other actions not listed in this Agreement if the law allows them. You do not have to receive
notice from us of any waiver, delay, demand or dishonor. We may proceed against you before proceeding against someone else.
25.

Assignment

This Agreement will be binding on, and benefit, any of your and our successors and assigns. You may not transfer your Account or
your Agreement to someone else without our written permission. We may transfer your Account, our rights and responsibilities
under this Agreement, and/or the unpaid balances of your Account to another company or person at any time, without your
permission and without advance notice to you. If this happens, any such company or person will take our place under this
Agreement. You must pay them and perform all of your obligations to them and not us. If you pay us after you are informed or learn
that we have transferred your Account or this Agreement, we can handle your payment in any way we think is reasonable. This
includes returning the payment to you or forwarding the payment to the other company or person.
26.

Warranties; Merchant Refunds

We make no warranties to you about any goods or services you may purchase from others using your Account or Card. Except as
otherwise provided in the “Billing Rights” section below, we are not responsible to you for any claim you may have related to the
goods or services you purchase with a Card. If you are entitled to a refund for goods and services you purchased with a Card, you
agree we may process these refunds as credits to the Balance Category for Purchases. You understand and agree that we have no
control over when a merchant initiates a refund. You agree that we have a reasonable amount of time after we receive your refund
to process it.
27.

Military Lending Act

Certain members of the Armed Forces and their dependents (“Covered Borrowers”) are protected by the Military Lending Act, 10
U.S.C. §987, and its implementing regulations, 32 C.F.R. Part 232 (“MLA”). This section applies to only to Covered Borrowers. If you
want more information about whether this section applies to you, please contact us at (866) 806-9304.
Statement of MAPR: Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an Annual Percentage Rate of 36%. This rate must include, as applicable to the credit transaction or account: (1) the
costs associated with credit insurance premiums; (2) fees for ancillary products sold in connection with the credit transaction; (3)
any application fee charge (other than certain application fees for specified credit transactions or accounts); and (4) any participation
fee charged (other than certain participation fees for a credit card account).

Oral Disclosures: To hear important MLA disclosures and payment information provided in this Agreement, please call (866) 8069304.
Covered Borrower. If you are a Covered Borrower as defined by the MLA, any waiver of your right to legal recourse under any state
or federal law, and any other provision in this Agreement that is unenforceable against you under the MLA, does not apply to you.
28.

Your Billing Rights: Keep This Document for Future Use

This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at the address provided on your billing statement.
In your letter, give us the following information:
•

Account information: Your name and account number.

•

Dollar amount: The dollar amount of the suspected error.

• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
•

Within 60 days after the error appeared on your statement.

• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.

•

The charge in question may remain on your statement, and we may continue to charge you interest on that amount.

•

While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

•

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3.

You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the address provided on
your billing statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

